[UMBER: 265550

STATE OF LOUISIANA,
VERSUS
JAMES E. MASON, JR.

<f/ mm
7 PSl/LAJORNMJ/L
deputy clerk op cdufrp^jCADOO^PARtSH, LOUISIANA

IRST JUDICIAL DISTRICT COURT

:addo parish, Louisiana

OPINION
The Court has for its consideration Petitioner’s Motion For Evidentiary Hearing and
Appointment of Counsel on Application for Post-Conviction Relief, filed on August 11,2020.
For the foregoing reasons, the Petitioner’s motion is DENIED.
On or about September 26, 2011 the Petitioner, having previously found guilty of Second
Degree Murder on September 1, 2011, came before the court for sentencing. Whereupon the
Petitioner was sentenced to pay com! costs through inmate banking and in addition to life
imprisonment at hard labor and committed to the Louisiana Department of Corrections subject to
the conditions provided by law. The court ordered said sentence served without benefit of
probation, parole, or suspension of sentence with credit for time served. Petitioner s conviction
and sentence were affirmed on appeal. Petitioner filed his first application for post-conviction
relief on June 16, 2014 but it was denied by the court. Petitioner filed his second application for
post-conviction relief on May 16, 2019 but it was denied. Petitioner filed his third application for
post-conviction relief on August 11, 2020
With regard to the Petitioner’s Application for Post-Conviction Relief’ filed on August,
11, 2020 Petitioner’s application is untimely. Under Louisiana Code of Criminal Procedure article
930.8, “no application for post-conviction relief, including applications which seek an out-of-time
appeal, shall be considered if it is filed more than two (2) years after the judgment of conviction
and sentence has become final”, unless certain circumstances exist. None of the considered
circumstances exist in the case at bar. Petitioner’s conviction became final on September 26. 2011
and filed this petition on August 11, 2020. More than two years have elapsed since petitioner’s
conviction and sentence became final and thus his application is denied.
Additionally, in accordance with La. La. C. Cr. P. Art. 930.4, (B) where an application for
post-conviction relief alleges a claim of which the Petitioner had knowledge and inexcusably failed
to raise in the proceedings leading to conviction, the court may deny relief. Petitioner also violated
La C Cr. P. Art. 930.4(C) by inexcusably failing to pursue this same claim on appeal. Further,
this claim violated La. C. Cr. P. Art 930.4(E) because Petitioner inexcusably omitted it from his

first application for post-conviction relief, and therefore his application is denied.
For the foregoing reasons Petitioner’s Application for Post-Conviction Relief, filed
August 11,2020 is DENIED.
The Clerk of Court is directed to provide Petitioner, his custodian and the District
Attorney with a copy of this opinion.

OPINION RENDERED, READ AND SIGNED, this iffiday of September 2020.

&

E
JUDGE

SERVICE INFORMATION
James E. Mason, Jr. #589589
Louisiana State Penitentiary
Angola, La 70712
Caddo Parish District Attorney's Office

ENDORSED
BtLED
[’AULA

P//3O20:
ATRJ

-1 TTE1

ACADDOE>'\ DTY CLC«K~

STATE OF LOUISIANA

|UMBER: 265550

VERSUS

Irst judicial district court
.DDO PARISH, LOUISIANA

JAMES E. MASON, JR

OPINION
The Court has for its consideration Petitioner’s Petition for Writ of Habeas Corpus AD
Testificandum on Post-Conviction Relief, filed on August 11, 2020. For the foregoing reasons,
the Petitioner’s motion is DENIED.
On or about September 26, 2011 the Petitioner, having previously found guilty of Second
Degree Murder on September 1, 2011, came before the court for sentencing. Whereupon the
Petitioner was sentenced to pay court costs through inmate banking and in addition to life
imprisonment at hard labor and committed to the Louisiana Department of Corrections subject to
the conditions provided by law. The court ordered said sentence served without benefit of
probation, parole, or suspension of sentence with credit for time served. Petitioner’s conviction
and sentence were affirmed on appeal. Petitioner filed his first application for post-conviction
relief on June 16, 2014 but it was denied by the court. Petitioner filed his second application for
post-conviction relief on May 16, 2019 but it was denied. Petitioner filed his third application for
post-conviction relief on August 11, 2020
With regard to the Petitioner’s Application for Post-Conviction Relief’ filed on August,
11,2020 Petitioner’s application is untimely. Under Louisiana Code of Criminal Procedure article
930.8, “no application for post-conviction relief, including applications which seek an out-of-time
appeal, shall be considered if it is filed more than two (2) years after the judgment of conviction
and sentence has become final”, unless certain circumstances exist. None of the considered
circumstances exist in the case at bar. Petitioner’s conviction became final on September 26. 2011
and filed this petition on August 11, 2020. More than two years have elapsed since petitioner’s
conviction and sentence became final and thus his application is denied.
Additionally, in accordance with La. La. C. Cr. P. Art. 930.4, (B) where an application foi
post-conviction relief alleges a claim of which the Petitioner had knowledge and inexcusably failed
to raise in the proceedings leading to conviction, the court may deny relief. Petitioner also violated
La. C. Cr. P. Art. 930.4(C) by inexcusably failing to pursue this same claim on appeal. Further,
this claim violated La. C. Cr. P. Art 930.4(E) because Petitioner inexcusably omitted it from his

first application for post-conviction relief, and therefore his application is denied.
For the foregoing reasons Petitioner’s Application for Post-Conviction Relief, filed
August 11, 2020 is DENIED.
The Clerk of Court is directed to provide Petitioner, his custodian and the District
Attorney with a copy of this opinion.

OPINION RENDERED, READ AND SIGNED, thislffiday of September 2020.

TJUDGE

SERVICE INFORMATION

James E. Mason, Jr. #589589
Louisiana State Penitentiary
Angola, La 70712
Caddo Parish District Attorney's Office

STATE OF LOUI

(UMBER: 265550

VERSUS

'FIRST JUDICIAL DISTRICT COURT

JAMES E. MASON, JR.

CADDO PARISH, LOUISIANA

OPINION
The Court has for its consideration Petitioner’s Motion to Compel Answer on
Application for Post-Conviction Relief, filed on August 11, 2020. For the foregoing reasons,
the Petitioner’s motion is DENIED.
On or about September 26, 2011 the Petitioner, having previously found guilty of Second
Degree Murder on September 1, 2011, came before the court for sentencing. Whereupon the
Petitioner was sentenced to pay court costs through inmate banking and in addition to life
imprisonment at hard labor and committed to the Louisiana Department of Corrections subject to
the conditions provided by law. The court ordered said sentence served without benefit of
probation, parole, or suspension of sentence with credit for time served. Petitioner’s conviction
and sentence were affirmed on appeal. Petitioner filed his first application for post-conviction
relief on June 16, 2014 but it was denied by the court. Petitioner filed his second application for
post-conviction relief on May 16, 2019 but it was denied. Petitioner filed his third application for
post-conviction relief on August 11, 2020
With regard to the Petitioner’s Application for Post-Conviction Relief’ filed on August,
11,2020 Petitioner’s application is untimely. Under Louisiana Code of Criminal Procedure article
930.8, “no application for post-conviction relief, including applications which seek an out-of-time
appeal, shall be considered if it is filed more than two (2) years after the judgment of conviction
and sentence has become final”, unless certain circumstances exist. None of the considered
circumstances exist in the case at bar. Petitioner’s conviction became final on September 26. 2011
and filed this petition on August 11, 2020. More than two years have elapsed since petitioner’s
conviction and sentence became final and thus his application is denied.
Additionally, in accordance with La. La. C. Cr. P. Art. 930.4, (B) where an application for
post-conviction relief alleges a claim of which the Petitioner had knowledge and inexcusably failed
to raise in the proceedings leading to conviction, the court may deny relief. Petitioner also violated
La. C. Cr. P. Art. 930.4(C) by inexcusably failing to pursue this same claim on appeal. Further,
this claim violated La. C. Cr. P. Art 930.4(E) because Petitioner inexcusably omitted it from his

first application for post-conviction relief, and therefore his application is denied.
For the foregoing reasons Petitioner’s Application for Post-Conviction Relief, filed
August 11, 2020 is DENIED.
The Clerk of Court is directed to provide Petitioner, his custodian and the District
Attorney with a copy of this opinion.

OPINION RENDERED, READ AND SIGNED, thisj^day'of September 2020.

t

JOHNlM^ELY, JR\
DISTRICT JUDGE

SERVICE INFORMATION

James E. Mason, Jr. #589589
Louisiana State Penitentiary
Angola, La 70712

ENDORSED FILED]
/

' PAi.il.A

^

5

OlKO

ig

A TRUE CO£*T ATTEST

Caddo Parish District Attorney's Office
kJaxj

,,

STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
No. 53,875-KH
STATE OF LOUISIANA
VERSUS
JAMES EDWARD MASON, JR.
FILED: 11/23/20
RECEIVED: PM 10/27/20
On application of James Edward Mason, Jr., for POST CONVICTION RELIEF in
No. 265,550 on the docket of the First Judicial District, Parish of CADDO, Judge
John D. Mosely, Jr.

Pro se

Counsel for:
James Edward Mason, Jr.

James E. Stewart, Sr.

Counsel for:
State of Louisiana

Before STEPHENS, THOMPSON, and BLEICH (Pro- Tempore), JJ.
WRIT DENIED.
Applicant, James Edward Mason, Jr., seeks review of the trial court’s
September 30, 2020, denial of his application for post-conviction relief. On the
showing made, this writ is denied. La. C. Cr. P. art. 930.2; Ramos v. Louisiana,
140 S. Ct. 1390, 206 L. Ed. 2d 583 (2020); State v. Gipson, 19-01815 (La. 6/3/20)
296 So. 3d 1051.

0

Shreveport, Louisiana, this

/s/ JMS

FILED:

day of

December

Is/ JRT

,2020.

/s/ EJB
SECOND CIRCUIT COURT OF APPEAL
STATE OF LO
A
Endorsed-tiled

CLERK,4

rnfav)

ROBIN N. JONES, ClMk OF COURT
A TRUE COPY - Attest*'

i

.

■ *■-*-

State v. Mason | WestlawNext

https://nextcorrectional.westlaw.com/Document/If23973b08cdb...

WEST LAW
State v. Mason
Supreme Court of Louisiana.

March 23, 2021

— So. 3d

2021 WL 1113712 (Mem) : 2021-00189 (La. 3/23/21)

(Appro)

2021 WL 1113712
Supreme Court of Louisiana.

STATE of Louisiana
v.
James Edward MASON, Jr.
No. 2021-KH-00189
03/23/2021

Applying For Supervisory Writ, Parish of Caddo, 1st Judicial District Court Number(s)
265,550, Court of Appeal, Second Circuit, Number(s) 53,875-KH.
Opinion
*1 Writ application denied.
Weimer, C.J., would grant and assigns reasons.
Griffin, J., would grant for the reasons assigned by Chief Justice Weimer.
Crichton, J., recused.
*1 WEIMER, C.J., would grant to address the retroactivity of Ramos v. Louisiana,
U.S.
, 140 S.Ct. 1390, 206 L.Ed. 2d 583 (2020).
All Citations
— So.3d

, 2021 WL 1113712 (Mem), 2021-00189 (La. 3/23/21)

End of
Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WestlawNext. © 2021 Thomson Reuters

1 of 1

4/21/21,10:21 AM

Additional material
from this filing is
available in the
Clerk's Office.

